USCA11 Case: 20-10421

Date Filed: 08/27/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10421-J
SHANE Q. WHIPPLE,
Plaintiff-Appellant,
versus
CORRECTIONAL OFFICER MICHAEL JOHNSON,
JOSHUA ABERNATHY,
Correctional Officer,
K. ZEBLEY,
L.P.N. psychological services,
SERGEANT B. KOREY,
Supervisor,
Defendants-Appe 1 lees.
Appeal from the United States District Court
for the Middle District of Florida
Before: WILSON, NEWSOM and LAGOA, Circuit Judges.
BY THE COURT:
Shane Q. Whipple, while an inmate at the Union Correctional Institution in Raiford,
Florida,1 filed a pro se civil rights complaint on July 21, 2016. He later filed an amended
complaint, which raised claims of Eighth Amendment violations by officials at Union Correctional

i

Whipple was released by the Florida Department of Corrections in March 2017. He was
subsequently detained at the Chatham County Jail in Savannah, Georgia. It appears that Whipple
was released from the Chatham County Jail at some point on or before March 30, 2020, as we
updated Whipple’s address to one in Glens Falls, New York on that date.

USCA11 Case: 20-10421

Date Filed: 08/27/2020

Page: 2 of 3

Institution. Oh January 30, 2019, the district court dismissed the amended complaint without
prejudice for failure to comply with its orders and for lack of prosecution.
On December 18, 2019, Whipple filed an “amended petition for habeas corpus relief’ in
his closed civil rights action, and sought to challenge his present confinement in the
Chatham County Jail in Savannah, Georgia. The district court struck the petition on January 13,
2020, stating that the case was closed and informing Whipple that he could initiate a new civil
rights action by filing a new complaint, or initiate a 28 U.S.C. § 2254 habeas corpus petition in the
appropriate court, as he sought to challenge his arrest and conviction in Savannah, Georgia, which
was outside the jurisdiction of the Middle District of Florida.
Whipple filed a notice of appeal from the January 13,2020, order.2 Whipple filed amotion
in the district court for leave to proceed on appeal in forma pauperis. In a single order, the district
court denied Whipple leave to proceed in forma pauperis in this appeal, as well as another appeal
he filed on February 20,2020. The district court assessed the $505.00 appellate filing fee, pursuant
to the Prison Litigation Reform Act of 1995 (“PLRA”), 28 U.S.C. § 1915, and certified that the
appeal was frivolous and not taken in good faith. Whipple’s motion for leave to proceed on his
appeal from the January 13, 2020, order is now before us.
DISCUSSION:
Because the district court already has instituted a partial payment plan under 28 U.S.C.
§ 1915(a) and (b), the only remaining issue is whether the appeal is frivolous. 28 U.S.C.
§ 1915(e)(2)(B)(i). “[A]n action is frivolous if it is without arguable merit either in law or fact.”
Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002) (quotation marks omitted).

2 Whipple also sought to appeal the original judgment of dismissal and another order in
this same appeal, but we dismissed the appeal in part for lack ofjurisdiction, retaining jurisdiction
over only the January 13, 2020, order discussed here.
2

USCA11 Case: 20-10421

Date Filed: 08/27/2020

Page: 3 of 3

A district court, on its own, “may strike from a pleading an insufficient defense or any
redundant, immaterial, impertinent, or scandalous matter.” Fed. R. Civ. P. 12(f)(1). We have also
recognized that district courts have the inherent power to strike a pleading as part of their inherent
powers to manage their dockets. State Exch, Bank v. Hartline, 693 F.2d 1350, 1352 (11th Cir.
1982). We review the exercise of this power for an abuse of discretion. Id.
Here, Whipple cannot raise a non-frivolous argument on appeal.

First, Whipple’s

December 18, 2019, “amended petition for habeas corpus relief’ challenged his confinement in
the Chatham County Jail in Savannah, Georgia, and, thus, was unrelated to the previously
dismissed civil rights action against officials at Union Correctional Institution. Moreover, the
Middle District of Florida lacked jurisdiction over the habeas petition, as it concerns Whipple’s
incarceration in Savannah, Georgia, which is located in the Southern District of Georgia.
See 28 U.S.C. § 2241(d). Accordingly, the district court did not abuse its discretion in exercising
its inherent powers to manage its docket by striking Whipple’s post-judgment “amended petition
for habeas corpus relief.” State Exch. Bank, 693 F.2d at 1352. Therefore, we now find that the
appeal is frivolous, DENY leave to proceed, and DISMISS the appeal.

3

USCA11 Case: 20-10421

Date Filed: 09/24/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10421-J
SHANE Q. WHIPPLE,
Plaintiff-Appellant,
versus
CORRECTIONAL OFFICER MICHAEL JOHNSON,
JOSHUA ABERNATHY,
Correctional Officer,
K. ZEBLEY,
L.P.N. psychological services,
SERGEANT B. KOREY,
Supervisor,
Defendants-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: WILSON, NEWSOM and LAGOA, Circuit Judges.
BY THE COURT:
Shane Q. Whipple has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2, of
this Court’s order dated August 27, 2020, denying his motion for leave to proceed in his appeal
from the district court’s order striking a 28 U.S.C. § 2254 habeas petition that Whipple filed in his
closed 42 U.S.C. § 1983 civil rights case. Because Whipple has not alleged any points of law or
fact that this Court overlooked or misapprehended in denying his motion for leave to proceed, his
motion for reconsideration is DENIED.

Case 3:16-cv-00936-MMH-MCR Document 95 Filed 01/13/20 Page 1 of 2 PagelD 583

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
SHANE Q. WHIPPLE,
Plaintiff,
Case No. 3:16-cv-936-J-34MCR

v.
MICHAEL JOHNSON, et al.,
Defendants.
ORDER

Plaintiff's "Amended Petition for Habeas Corpus Relief" and
untitled pleading dated December
STRICKEN.

This case is closed.

30,

2019

(Docs.

93,

94)

are

See Order of Dismissal Without

Prejudice (Doc. 86) and the Court's October 16, 2019 Order (Doc.
89) . If Plaintiff wishes to initiate a new civil rights action, he
may do

so by

filing

a

new

complaint.

If

Plaintiff

seeks

to

challenge his state court judgment of conviction, he may initiate
a habeas corpus case pursuant to 28 U.S.C. § 2254 in the district
where his judgment of conviction is entered (Southern District of
Georgia).
DONE AND ORDERED at Jacksonville, Florida, this 13th day of
January, 2020.

United States District Judge

Case 3:16-cv-00936-MMH-MCR Document 95 Filed 01/13/20 Page 2 of 2 PagelD 584

caw 1/10
c:

Shane Quint Whipple
Counsel of Record

2

Case 3:16-cv-00936-MMH-MCR Document 89 Filed 10/16/19 Page 1 of 2 PagelD 548

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

SHANE Q. WHIPPLE
Plaintiff,
v.
Case No. 3:16-cv-936-J-34MCR
MICHAEL JOHNSON,
et al.
Defendants.
ORDER
Before the Court is Plaintiffs Notice (Doc. 88), filed October 15, 2019. In the Notice,
Whipple asserts that Chatham County authorities falsely arrested him in Savannah
Georgia, and conducted “a false plea negotiation" to prevent him from attending a
settlement conference. Notice at 2. He complains that he continues to hear voices as
Chatham County agencies video and audio tape him inside his apartment housing unit.
See id. at 1-3. Whipple apparently wants to “renew” claims and present additional claims
in this case. This case is closed. The Court dismissed the case without prejudice on
January 30, 2019. See Order of Dismissal Without Prejudice (Doc. 86). In doing so, the
Court noted that Whipple’s claims stem from events beginning at the earliest on April 20
2016. See id. at 4 n. 2. Thus, the applicable four-year statute of limitations still has not

Case 3:16-cv-00936-MMH-MCR Document 89 Filed 10/16/19 Page 2 of 2 PagelD 549

expired. Accordingly, to the extent Whipple intends to pursue his claims and/or present
new claims, he may initiate a new civil rights case, if he elects to do so.
DONE AND ORDERED at Jacksonville, Florida, this 16th day of October 2019.

United States District Judge

sc 10/16

c:
Shane Quint Whipple
Counsel of Record

2

Case 3:16-cv-00936-MMH-MCR Document 86 Filed 01/30/19 Page 1 of 4 PagelD 538

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
SHANE Q. WHIPPLE,
Plaintiff,
Case No. 3:16-CV-936-J-34MCR

v.
MICHAEL JOHNSON, et al. ,
Defendants.

ORDER OF DISMISSAL WITHOUT PREJUDICE
Plaintiff Shane Q. Whipple initiated this action on July 21,
2016, by filing a pro se Civil Rights Complaint (Doc. 1)-1
On September 14, 2018, the Court issued an order setting this
case for a settlement conference before the magistrate judge. See
Order

(Doc.

75;

Settlement

Conference

Order).

The

Settlement

Conference Order directed that all parties shall personally attend
the settlement conference, which was scheduled for Friday, October
26, 2018. See Settlement Conference Order II 2, 3. On October 15,
2018, Whipple filed a settlement memo (Doc. 79),

and on October

22, 2018, he filed a notice of his intent to personally appear for
the settlement conference (Doc. 80).

1 Plaintiff was a prisoner in the Florida Department of Corrections
when he filed this case. He was released in March 2017. See
Corrections Offender Network, Florida Department of Corrections,
available at http://www.dc.state.fl.us/AppCommon/ (last visited
Jan. 28, 2019).

Case 3:16-cv-00936-MMH-MCR Document 86 Filed 01/30/19 Page 2 of 4 PagelD 539

Despite his written, signed certification to the Court that
he planned to personally appear for the settlement conference,
Whipple called the clerk's office two days before the scheduled
settlement conference,

on October 24,

2018,

stating that he no

longer planned to attend. Based on Whipple's oral representation,
the Court canceled the settlement conference and directed Whipple
to show cause why this case should not be dismissed for his failure
to comply with the Court's Settlement Conference Order or otherwise
prosecute this case. See Order (Doc. 81; Show Cause Order) . Whipple
responded to the Show Cause Order on November 1, 2018

(Doc. 82;

Whipple's Show Cause Response), asserting that he lacked funds to
reach Jacksonville

(even though he already purchased a ticket),

and he was unable to travel because of medication issues.

See

Whipple's Show Cause Response at 1. Whipple expressed his intent
to prosecute the case and requested that the Court set the case
for trial. Id. at 2.
Following
November

8,

receipt

2018,

the

of

Whipple's

Court

Show

Cause

directed Whipple

to

Response,
confer

on
with

opposing counsel to arrange a date for a settlement conference and
to file a notice with the Court by December 26, 2018, certifying
that he has done so. See Order (Doc. 83; November Order). Finding
Whipple's explanation for his failure to appear in Jacksonville

2

Case 3:16-cv-00936-MMH-MCR Document 86 Filed 01/30/19 Page 3 of 4 PagelD 540

unsatisfactory, the Court did not discharge the Show Cause Order.
See November Order at 2.
Whipple has not complied with the Court's November Order,
prompting Defendant Zebley to file a Motion to Dismiss for lack of
prosecution (Doc. 84; Motion to Dismiss). Thus, the Court entered
a second show cause order, affording Whipple one final opportunity
to comply with the Court's Orders and to prosecute his case. See
Order (Doc. 85; Second Show Cause Order)
Rules,

(citing Rule 3.10, Local

United States District Court for the Middle District of

Florida). The Court advised Whipple that his failure to comply by
the designated deadline may result in the dismissal of this case
without further notice.
Plaintiff continues to demonstrate that he is unwilling or
unable to prosecute this case.

As of the date of this Order,

Plaintiff has not responded to the Motion to Dismiss,
neither

complied with

explained his

the Court's Orders

noncompliance,

nor

(Docs.

75,

requested additional

and has
83,

85),

time

to

comply. Given that the designated time to respond to the Court's
Second Show Cause Order (Doc. 85) passed on January 23, 2019, the
Second Show Cause Order has not been returned to the Court as
undeliverable, and Plaintiff has failed to respond to the Motion
to Dismiss or the Second Show Cause Order,

3

the Court concludes

Case 3:16-cv-00936-MMH-MCR Document 86 Filed 01/30/19 Page 4 of 4 PagelD 541

that

the

dismissal

of

this

case

for

failure

to prosecute

is

appropriate at this time.2
Accordingly, it is
ORDERED:
1.

Defendant

Zebley's

Motion

to

Dismiss

(Doc.

84)

is

GRANTED to the extent this case is DISMISSED without prejudice for
Plaintiff's failure to comply with Court Orders and for lack of
prosecution. Otherwise, the Motion is DENIED.
2.

The Clerk of Court shall enter judgment dismissing this

case, close the case, and terminate any pending motions.
DONE AND ORDERED at Jacksonville, Florida, this 29th day of
January, 2019.

United States District Judge

caw 1/28
c:
Shane Quint Whipple
Counsel of Record

2 In making this determination, the Court notes that the claims in
this action stem from events beginning at the earliest on April
20, 2016, thus the applicable four-year statute of limitations has
not yet expired.
4

